<html>
<title> - [H.A.S.C. No. 110-86] THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION TEAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 110-86]

  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                                 TEAMS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 5, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                     U.S. GOVERNMENT PRINTING OFFICE

37-731 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, September 5, 2007, The Role of the Department of 
  Defense in Provincial Reconstruction Teams.....................     1

Appendix:

Wednesday, September 5, 2007.....................................    33
                              ----------                              

                      WEDNESDAY, SEPTEMBER 5, 2007
  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                                 TEAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Barton, Frederick D., Senior Advisor and Co-Director, Post-
  Conflict Reconstruction Project, Center for Strategic and 
  International Studies..........................................    10
Cruz, Ginger, Deputy Special Inspector General for Iraq 
  Reconstruction.................................................     3
Parker, Michelle, International Affairs Fellow, Rand Corporation.     7

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    40
    Barton, Frederick D..........................................    68
    Cruz, Ginger.................................................    41
    Parker, Michelle.............................................    52
    Snyder, Hon. Vic.............................................    37

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
  THE ROLE OF THE DEPARTMENT OF DEFENSE IN PROVINCIAL RECONSTRUCTION 
                                 TEAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                      Washington, DC, Wednesday, September 5, 2007.
    The subcommittee met, pursuant to call, at 2:55 p.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good afternoon. We appreciate your patience in waiting 
through that series of votes, but those are the last votes for 
the day so we will be uninterrupted by anything coming from the 
House floor.
    We welcome you to this first hearing that the Subcommittee 
on Oversight and Investigation is having on the role of the 
Department of Defense in the provincial reconstruction teams, 
both in Iraq and Afghanistan.
    We chose this topic for this hearing because Provincial 
Reconstruction Teams (PRTs) are considered to be so critical to 
our efforts, both in Iraq and Afghanistan. PRTs also go to an 
issue that my colleague Mr. Akin and I and other members of the 
committee have been interested in; that is, examining in more 
depth how the interagency process is working, or, for that 
matter, is not working, at the point of implementation and 
operations in the field.
    As we have seen in Iraq and Afghanistan, the national 
effort involves more than just military actions and instead 
requires integrated efforts and resources of other governmental 
departments and agencies besides the Department of Defense.
    Provincial reconstruction teams could be a case study of 
the need for an effective, integrated process to achieve a 
government-wide unity of effort in complex contingency 
operations. When I talk about governmentwide, I am talking 
about U.S. Government-wide unity of effort.
    In addition to getting a better understanding of the role 
DOD plays in the PRT program and how DOD personnel are selected 
and trained to serve on PRTs, we would also like to better 
understand how the PRTs are operating, both in Iraq and 
Afghanistan, what they hope to accomplish and how well they are 
going, including how progress is measured and where we see 
things going in the future.
    We have a good panel of witnesses this afternoon.
    We appreciate you all being here.
    Deputy Special Inspector General for Iraq Reconstruction 
Ginger Cruz. Ms. Cruz just returned from Iraq, where she has 
been involved in conducting an audit examining the 
effectiveness of the PRT program. This is a third in the series 
of audits on PRTs that she has been working on. We understand 
the results of the audit have not been formally released yet, 
but we will be interested in hearing about that work today.
    Ms. Michelle Parker served for a year and a half as a USAID 
representative on a PRT in Afghanistan and later became the 
development advisor to the NATO commander. She is currently at 
RAND on a fellowship.
    And Mr. Rick Barton, who is a co-director of the Center for 
Strategic and International Studies' Post-Conflict 
Reconstruction Project and had experience in numerous post-
conflict reconstruction settings. He co-authored a report 
earlier this year, ``Measuring Progress in Afghanistan.''
    We had hoped to have a witness today from the Department of 
Defense, but DOD thought it might perhaps work better to do 
that later on, since we have so much DOD testimony coming 
within the next couple of weeks on Iraq. And we look forward to 
their testimony as we progress.
    So I will now yield to Mr. Akin for any comments he would 
like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 37.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder.
    First of all, good afternoon to our witnesses. And to 
several of you, at least, thank you for your work on behalf of 
our nation and also for the different countries where you were 
serving. And we are just delighted to have you here.
    And this is a topic that a number of us have been 
interested in. It seems to keep emerging in various forms. And 
one of the things that would be helpful, if in your testimony 
you could include it, would be something about the sense that 
we have that we have a military presence. We can say, ``Okay, 
General, you go over there and fight this war,'' or something, 
but we don't have the parallel in State Department or in 
Commerce or something else. And yet a lot of the work that is 
being done is not specifically military.
    So the question is, how do we structurally deal with that? 
How do we deal with the fact that we have no friendly media, 
for instance, over there? The military doesn't have a section 
that says, ``These are the people that put in a television 
station in a foreign country.''
    So that is one of the things that gets pretty close to 
where some of you I think were working, so if you want to 
comment on that, that would be a help.
    Let me get back to my text here.
    Today's hearing begins a new inquiry in this subcommittee, 
the role of the Department of Defense in the provincial 
reconstruction teams. While it is a new topic for this 
subcommittee, PRTs and the subject of stabilization operations 
is very much related to our previous work on the Iraqi security 
forces and the Iraqi alternatives hearing series the 
subcommittee conducted this past July.
    PRT is an interagency team comprised of civilian and 
military personnel employed in Iraq and Afghanistan with the 
mission of extending the reach of the government into regional 
provinces in local areas.
    While each PRT has a fair amount of autonomy to tailor its 
work to the needs of their province, it is important to note 
that PRTs in Iraq and Afghanistan do not have the same 
emphasis. As I understand it, Afghanistan PRTs focus on classic 
development projects, such as improving road networks, adding 
to the supply of electricity and water, building schools and 
clinics. And PRT in Iraq, by contrast, places stronger emphasis 
on capacity-building, particularly as it relates to local and 
civil governments. It appears, increasingly, that that effort 
in the area of local and civil government is going to be very 
important to us.
    Finally, another aspect of PRTs which I am interested in is 
the interagency composition of the teams. I would like to hear 
from today's witnesses their views on whether the PRTs are, or 
should be, a model for how to conduct interagency operations. 
While I know that PRTs face a number of challenges, I am 
curious whether our witnesses believe that the teams are 
executing interagency operations effectively.
    You often hear that Operation Iraqi Freedom and Operation 
Enduring Freedom require all elements of national power, though 
I think it has been the exception, not the rule, when this has 
happened.
    This investigation should look into whether PRTs have the 
right mix of interagency expertise, clarify which agencies are 
underrepresented and offer suggestions for what PRTs should 
look like.
    Again, I really appreciate your work. Thank you very much 
for joining us, and we look forward to your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 40.]
    Dr. Snyder. Thank you, Mr. Akin.
    All your written statements will be made a part of the 
record, and we will begin with your oral statement.
    We will start with Ms. Cruz.

STATEMENT OF GINGER CRUZ, DEPUTY SPECIAL INSPECTOR GENERAL FOR 
                      IRAQ RECONSTRUCTION

    Ms. Cruz. Thank you very much, Mr. Chairman, Ranking Member 
Akin and members of the House Armed Services Subcommittee 
Oversight and Investigations. Thank you for inviting me to 
represent the Office of the Special Inspector General for Iraq 
Reconstruction to discuss the role of DOD and provincial 
reconstruction teams.
    I was part of the team that first did the research prior to 
our audit of PRTs back in July of 2006. And in the course of 
the last 14 months, I have actually been a couple of times to 
the primary PRTs all around the country, each of which is very 
different.
    We have done three audits on the PRT issue. We have 
released two, and the third will be released in two weeks. I 
can't discuss any of the findings of the third audit until it 
is actually final and released, but much of the testimony that 
I have today will address our first two audits.
    Our first audit, in short, found that there were deep 
concerns about adequate logistical support and security 
agreements between the Department of Defense and the Department 
of State. In fact, it took about a year for the two agencies to 
sign a memorandum of understanding that put in place the 
security regulations that were necessary to support the PRT 
teams. That was something that we found in our second audit had 
been accomplished, and a lot of progress was made over that 
period of time.
    Our second audit looked at the surge, and it tried to 
ascertain if the surge was being implemented. We published that 
audit in June of 2007, and we found that, generally, the surge 
was on track. They were identifying more civilians to be able 
to fill positions, although the Department of Defense still had 
to come through with many of the personnel that were required 
for the effort.
    I think our most important finding from our second audit, 
though, was there was still a lack of defined objective 
milestones and performance measures. And it is very difficult 
for people in the field who are doing their work under fire, 
under pressure, doing heroic work in many of these PRTs, to 
figure out what it is that the end goal is that they are 
working toward. And so, the need for there to be defined 
performance measures and defined objectives is very important 
for these people who are risking their lives to do this work, 
and we still find that they fall short in that area.
    The PRT concept, as currently developed, is set for 800 
people across Iraq and it has a $2 billion funding source. And 
that $2 billion is split between operational money and program 
money. And about half of that goes to programs, about half of 
that goes to operations. It is a two-year-old project.
    And the PRT personnel basically do their work by conducting 
face-to-face meetings with provincial government officials in 
every one of those provinces. The Department of Defense 
generally provides security for all of the PRTs, and they 
provide life support transportation and a significant number of 
those 800 personnel slots in the PRTs. The State Department 
provides leadership for the overall PRT program. They provide 
staffing; they provide program and operational funding for the 
effort.
    Today there are 25 PRTs. We have brought a map for 
reference. There are 10 primary PRTs, of which seven are run by 
the United States and three by coalition. And there are 15 
EPRTs, which are embedded PRTs. Those are PRTs with the 
military in the lead and usually a team of four individuals 
underneath them who support the efforts to build governance and 
capacity.
    They just recently added four more Embedded Provincial 
Reconstruction Teams (EPRTs), although I will say that, for the 
committee's understanding, in my view, every PRT is really an 
EPRT, to some extent. Given the current situation in Iraq with 
security, there is, in my judgment, no way that a PRT could do 
its work without having the military supporting their 
operations.
    The one exception could perhaps be up in the north. In the 
Kurdish regions of Erbil, Sulaymaniyah and Dahuk, there is a 
more permissive environment, and there might be a capability to 
do more of that work. But in the rest of Iraq, it is impossible 
for the PRTs to do their work without close integration with 
the military and their support for transportation and security.
    Among the key challenges that we address in the written 
testimony: personnel. Department of State and the civilian 
agencies have had a very difficult time finding personnel for 
these efforts.
    In some cases, we had found that, because there is no 
ability to compel individuals with the right skill sets to go 
in, they rely on volunteers. And because of the dangers and 
because of the nuances of where this will put you on your 
career path within their civilian agencies, there is not 
necessarily a reward for a person within their career path to 
take the risk of working in Iraq and to put in a year or two 
working at these PRTs. So, as a result, it is very difficult to 
find people with the right skill sets from civilian agencies 
and compel them to go to Iraq to work.
    In the case of the Department of Defense, they have no 
problem. They can find the right people and send them in. But 
the problem that we have found with DOD, which they are 
addressing, is finding people with the right skill sets. Too 
often, we found that there are people who are artillery experts 
or who are aviation mechanics, who are doing heroic work, but 
they will be sending them in to advise governors on how to 
build capacity development, and it is the wrong skill set. And 
they try very hard and they are doing the best work that they 
can, but the skill match is not quite there yet.
    So the Department of Defense, we feel, could do a little 
bit more work in trying to match up the skills better to the 
job. They have done a better job of that. And the last time I 
was out there, they were finding JAG officers to work rule of 
law; they were finding reservists with MBA degrees to work 
economic issues. So there has been progress in that area.
    On the issue of civilian-military integration, the problems 
that we are finding are that there is really no permanent, 
predictable method of integrating decision-making and resource-
sharing. Instead, there is a patchwork quilt of memoranda of 
agreement and fragmented orders (FRAGOs) and military orders 
and cables that, all together, sort of provide the policy 
underpinnings that are used by PRTs.
    It makes it very difficult for the people in the field to 
figure out how to apply those rules and goals and missions 
because they are constantly changing, they are not set in 
stone, and they are not understood well by the teams. And 
without frequent communication, the policy is really not 
devolved down to the field level.
    So that is one of the problems that we have identified.
    Plus, the military is much better resourced. In many of 
these areas, you are talking 6,000 soldiers or more in an area 
on the streets. They have millions of dollars in Commander's 
Emergency Response Program (CERP) funds. They have billions of 
dollars in Iraq security forces funds. They have helicopters, 
they have vehicles. They can fly the governor down to see the 
ministries. They have all the resources.
    The PRTs, you are talking less than 100 people, in some 
cases less than $10 million.
    And so, the disparity between the resources and the 
influence that the PRTs can bring and the resources and the 
influence that the military can bring is very significant. And 
so, that necessitates very close coordination between the 
military and the PRTs.
    On the security front, again, the only way that you can 
move is with military support around the country, and that 
causes a lot of problems. Right now, if the Diyala team wants 
to meet with anybody in the governance center or if the team 
from Mosul wants to go down and have a meeting with the 
governor, the only way they can do that is with a full 
complement of military with Humvees and all of the security 
support. So the military is the only way that they can move 
around in those areas.
    They did look at private security, but that would have cost 
$2 billion, which is unsustainable. And so, they have depended 
on the military to do that.
    On the issue of coordination, there is about $44 billion in 
U.S. money that is flowing around the country. And that is 
dozens of funds that are administered by several independent 
agencies.
    And Iraqi officials commonly suffer from something we call 
interlocutor fatigue, where a whole parade of U.S. officials--a 
major, a colonel, a PRT team leader, a USAID guide, a 
contractor who works for USAID--will come in at various points 
and will meet with Iraqi leaders. And so, it is very easy to 
see how the Iraqis get extremely confused and how PRTs spend an 
inordinate amount of time trying to coordinate and still fall 
short because there is just too much coordination that needs to 
go on. There are too many funds; there are too many moving 
parts.
    And so, it becomes a very difficult challenge for PRTs to 
not only manage the civilian-agency-military cooperation, but 
then you add to that the cooperation that they have to have 
with the Government of Iraq.
    And then the last dimension is the Government of Iraq 
itself has a bifurcated government system where you have local 
government that does not talk to the national level government. 
And so, the PRTs are very often in the position where they not 
only are getting the American officials to talk to each other, 
but they are also getting Iraqi officials to talk to each 
other. And it becomes an almost impossible challenge, but they 
are doing very good work in that area.
    Quickly, going through some positive developments: In the 
surge, we have seen the 10 PRTs stand up. They have five more 
coming. Of the 804 slots that are dedicated for PRTs, 610 have 
been filled. The Department of Defense has filled 96 percent of 
its slots. The State Department has identified 68 percent of 
its slots. And that is in comparison with a year ago, when 
there were 238 people staffing PRTs; 67 percent were from the 
Defense Department and 16 percent from the State Department. So 
there has been an increase in the amount of civilians that are 
coming in to staff the PRTs.
    One of the things that PRTs have decided to do to replicate 
DOD is to create something called a quick reaction fund. CERP 
funds, as we have noted, have been very effective because they 
don't have a lot of bureaucracy. You have small amounts of 
money that you can apply on the ground quickly. And so the 
State Department recognized that, and they have taken their 
State Department money and created a new program called QRF, 
where they are going to start with $200,000 per province to put 
that on the field. So that is a positive development.
    Ongoing challenges: The organization that leads PRTs is 
called the Office of Provincial Affairs, OPA. They have had 
three heads in 4 months. They are constantly changing the 
leadership. And all the people that work the primary 
coordination points between all of these 25 PRTs have almost 
completely changed out in the last 3 months. As a result, you 
have people in the field that have very little support from 
headquarters in Baghdad, and that has been a huge challenge and 
a huge problem.
    The new head of OPA, who I met about two weeks ago, says 
that she is committed to stay in her post for two years. That 
will be significant because not many people do two-year tours 
in Iraq. So that would be a significant improvement, if that 
happens.
    Dr. Snyder. What is her name?
    Ms. Cruz. Her name is Phyllis Powers. She is an ambassador.
    In closing, the PRT program is one of the most valuable 
programs that the United States runs today in Iraq. It has come 
a long way in a year. And with further improvements, it could 
serve as a model for civil military stabilization and 
rehabilitation efforts.
    The PRT program expansion is on course, but in large 
measure because of the heroic efforts of the individuals that 
are in the field and actually doing the work.
    Thank you very much for your time and attention to these 
matters, and I look forward to answering your questions.
    [The prepared statement of Ms. Cruz can be found in the 
Appendix on page 41.]
    Dr. Snyder. Thank you, Ms. Cruz.
    Ms. Parker.

  STATEMENT OF MICHELLE PARKER, INTERNATIONAL AFFAIRS FELLOW, 
                        RAND CORPORATION

    Ms. Parker. Good afternoon, everyone. I am really pleased 
to be here today.
    Starting in July 2004, I began a 29-month tour in 
Afghanistan. First I was a USAID field program officer in the 
Jalalabad PRT, and then I was a development advisor to the 
commanding general of the NATO-led International Security 
Assistance Force.
    The second position was actually created by the commanding 
general, David Richards, because he believed in the concept of 
three D's--of defense, development and diplomacy--being needed 
to succeed in Afghanistan. He was a military person. He had his 
Political Advisor (POLAD), but he didn't have a development 
advisor. So he created the position, and USAID hired me to 
staff it.
    The reason I bring that up is because the three-D concept 
is essentially the foundation of the PRT.
    So today I will describe my PRT structure in Jalalabad and 
the military's role in it, and then I will end by suggesting 
concrete actions Congress can take to support the larger PRT 
mission.
    My PRT's organization structure varied greatly over my 20-
month tour, but essentially we had two core components.
    First was something we called the command group, which 
consisted of USAID, the Departments of Agriculture, State and 
Defense. And that was the lieutenant colonel as a military lead 
who participated in that.
    Second, we had support functions that consisted of 88 
soldiers that did everything from force protection, civil 
affairs, medical communications, logistics and base 
operations--pretty much what you covered.
    To emphasize that point, there were seven of us that did 
substantive issues. Everyone else was there in a support 
function.
    The PRT's mission in Afghanistan is to extend the reach of 
the Afghan government by enabling security sector reform and 
reconstruction and development. But it is also part of this 
much larger, full-spectrum operation that ranges from combat 
operations that Marines and Special Forces are doing to aid in 
midwife training that is going on down the street. So the PRT, 
we were also responsible for trying to coordinate at best, 
deconflict at worst, all of those different programs that the 
U.S. Government was doing in the area.
    The military's role in the PRT was twofold. First, they 
provided all the basic life support that enabled each agency's 
mission. For example, they provided the transport and security 
for over 500 of my missions outside of the wire.
    Second, they supported stability operations by conducting 
joint patrols with Afghan security forces; running a hearts-
and-minds campaign through the civil affairs team that included 
everything from meeting village leaders, identifying how the 
government could be more effective or legitimate in the area, 
and then helping the government take action to win the 
population support.
    And finally, the military commander of the PRT unified the 
various Afghan security elements that, two years previously, 
were shooting at each other. He was the primary liaison between 
all of the U.S. Military actors in the area and the Afghan 
Government, and then also approved all the military-funded 
projects.
    Some examples of how my PRT achieved our mission included: 
We helped facilitate the Presidential and parliamentary 
elections; we supported the Afghan security forces during the 
2005 riots; we employed upwards of 20,000 people per day as 
part of a counter-narcotics effort; and working with the 
provincial government, we identified fence-sitting villages, 
funded projects to win the population's support for the Afghan 
Government, and it actually resulted in blocking key smuggling 
routes through the Tora Bora mountains that stopped the 
Taliban's resupply efforts.
    So what worked well?
    First, each agency were co-equal partners in the command 
group. There was not one leadership component. That actually 
helped negate a lot of the ego issues or personality issues 
that take place in PRTs and allowed us to work as real partners 
in the team.
    Second, a flexible fund controlled by the PRT for stability 
operations allows us folks at the tactical level to address the 
immediate needs that could become larger problems if left 
unaddressed.
    Third, fully integrating the Afghan Government in all of 
our decision-making.
    Fourth, civil-military integration at the brigade, division 
and corps command levels.
    And finally, having dedicated force protection to support 
each of our agency's missions.
    There were also challenges, most of which arose from a lack 
of clear policy. And the first two I discussed today really do 
need immediate action.
    First is the Commander's Emergency Response Program, or 
CERP, funds. The military has taken on the development and 
reconstruction mission by default for two reasons: There is no 
similar flexible funding mechanism for USAID--I am glad to hear 
that it is happening in Iraq now, but there is not in 
Afghanistan. Second, CERP cannot be used for security 
programming in Afghanistan, because all the funds are managed 
by the U.S. military in Kabul, and this often leaves local 
security needs unmet in the short term.
    There must be a better alignment of mission and resources 
at a PRT level. The military supports security sector reform; 
USAID's support reconstruction and development. Yet neither 
have funding mechanisms that are appropriate to do those jobs.
    And this also really confused Afghans and aid agencies, who 
didn't understand why the military part of a PRT was building 
schools and clinics when the local police had no uniforms, 
vehicles or facilities.
    The second main issue is the need for clarity on how the 
U.S. wants to deliver technical assistance. Calls for United 
States Department of Agriculture (USDA), Health and Human 
Services (HHS) or Education to send staff to PRTs so they can 
provide direct technical assistance denotes a major policy 
shift, because currently USAID outsources all of those 
responsibilities to a development industry. Shifting from 
outsourcing to direct implementation is not only a major policy 
change, but will require greater force protection requirements 
from the military and needs serious discussion.
    Other challenges that are not as critical in the policy 
front this moment include better integration of PRT and war-
fighting missions; the command group needs to be included in 
all planning combat operations in the province; and finally, we 
need a lot more Civil Affairs Alpha teams out there because 
they are the only part of the PRT dedicated to working outside 
of the provincial capital. They are our eyes and ears.
    So, to reiterate, two critical policy decisions that need 
immediate action are aligning CERP to the mission. It is very, 
very useful and needs to focus on security sector initiatives 
once a flexible fund is created for USAID. In the interim, CERP 
should continue to address both security and development, but 
with greater input for the development side, and second, 
clarifying how the U.S. wants to deliver technical assistance.
    So, to end on a personal note, honestly, I have never seen 
interagency coordination work as well as it did in my PRT. 
Jalalabad was known as the best PRT because of how myself and 
my partners came together to overcome those issues I just 
described. And hopefully, with your assistance, that program 
will be made even better.
    So thank you for your time.
    [The prepared statement of Ms. Parker can be found in the 
Appendix on page 52.]
    Dr. Snyder. Thank you, Ms. Parker.
    Mr. Barton.

    STATEMENT OF FREDERICK D. BARTON, SENIOR ADVISOR AND CO-
  DIRECTOR, POST-CONFLICT RECONSTRUCTION PROJECT, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Barton. Thank you very much, Congressman Snyder, 
Congressman Akin, fellow members. Thank you.
    Rather than go through my written testimony, I would like 
to just make a few remarks that I think complement the remarks 
that both Michelle and Ginger have made, that bring forward 
three larger challenges that the U.S. Government and our 
Department of Defense face as they look at these transition 
cases.
    Just to quickly summarize what I said in my written 
testimony, I essentially have described PRTs as useful 
innovations that should be seen as works in progress and that 
we should have very modest expectations for what they are going 
to do. They are not transformative, as presently structured, in 
any of these places. The arrival of PRTs in Iraq is probably 
too late to be of much value, and their presence in Afghanistan 
may lack the critical mass to make a difference.
    So we have a problem. On the other hand, they are 
important. And if we are going to get it right at any time in 
the future, it is valuable to get it right right now.
    The three major challenges that I would like to talk about: 
First is that we still need to provide security and public 
safety in most of these places. That is job number one. And if 
you don't do that, that is a precondition for any other kind of 
progress.
    We have not done that in any of these cases that we are 
talking about today. And as a result, these experiments are 
really on the margins. If you don't establish a new order at 
the very beginning without violence or intimidation, then it is 
going to be very difficult to find friends, allies or expect 
the sort of freedom of movement on the part of people that is 
really going to make a difference on the ground.
    The second major challenge is that we need to correct our 
asymmetric imbalance between U.S. military and civilian 
capacity. I think both of my colleagues have mentioned it in 
their statements as well, but it is way out of balance, and it 
is not getting any better.
    And so, to imagine coordination and integration, which is 
really what you have to have--coordination is desirable; 
integration is absolutely necessary--it is just not possible, 
as presently structured.
    That is further weakened by sort of the efforts that we 
make on something like a PRT. I don't believe that PRTs are yet 
as important to the State Department, U.S. Agency for 
International Development (USAID) or the Defense Department as 
they need to be if they are really going to be effective. You 
just don't do very many things that well if it is the 15th or 
25th thing on your list.
    And so, we are still operating as a sideshow. There is not 
the critical mass that we need. There are vacancies. The 
training stinks. The best people are not necessarily chosen. 
Promotions don't result from serving in these places. They 
don't get the money. There are a lot of signs that we are not 
sincere about what we are saying and what we are doing. And if 
you don't have that consistency, you are not going to perform.
    The third major challenge is that all initiatives in this 
conflict transition period have to put the people of the place 
first--the people of the place first. It is not about the 
United States. It is about, actually, the Afghans or the 
Iraqis.
    That also runs up against dominant cultures of our 
institutions. The U.S. Department of Defense is very good at 
getting things done, moving from point A to point B. It is many 
times more important to have a very rich process rather than to 
build the school. It is more important to actually have the 
people of the community say that they need a certain kind of 
school and that they are willing to work for it than to have us 
put it up for them. It is more important that we--completing 
projects isn't the end-all and be-all here. And oftentimes the 
Department of Defense will revert to the war mode, because that 
is job number one, as opposed to the community job.
    So these are critical structural flaws that really will 
always stand in the way of the PRT. And when you look at the 
recommendations that I have offered, there is a considerable 
focus on where should they go and what should they look like 
and how can we make them function more smoothly. And pretty 
much everything that I said is highly complementary to what my 
colleagues have offered already.
    So thank you very much, and I look forward to the 
conversation with you.
    [The prepared statement of Mr. Barton can be found in the 
Appendix on page 68.]
    Dr. Snyder. Thank you all.
    We will now begin our questioning. We fall under the five-
minute rule, including Mr. Akin and I. We put ourselves on the 
five-minute rule. We will take those members that were here 
before the gavel and then we will go to the members that 
arrived after the gavel.
    We have also been joined by Representative Kirsten 
Gillibrand, who will be allowed to question, without objection, 
at the conclusion of the members of the committee and will be 
in the rotation.
    So if you will start the clock. Hopefully the clock will 
work.
    Ms. Cruz, you had in your written statement what I thought 
was kind of a good thumbnail, one-sentence summary of the kind 
of discussions that Jeff Davis, Mr. Akin and others have been 
talking about off and on for several months. And you say, 
quote, ``The Federal Government''--meaning our Federal 
Government--``The Federal Government, as it is currently 
structured, is not well-suited to perform complex interagency 
missions in foreign lands.'' And I think that really is a good 
summary of the problem.
    Now, the issue is, then, how do we get at this? One of our 
former members of this committee, who is no longer on this 
committee, Tom Allen from Maine, was in Iraq and Afghanistan in 
this last recess. We were talking not long ago about it. And he 
also has been a big believer in the need for more oversight, 
but he left the committee before we started this subcommittee.
    And his impression was that one of the problems we are 
having with the PRTs is there has just been a lack of 
congressional oversight; that there were things that could have 
been done early on by us on this committee and in the Congress 
that would have helped things along.
    In your written statement, Ms. Cruz, you talk about perhaps 
we need a beyond-Goldwater-Nichols approach. Would you talk 
about some of the things you see where Congress is going to 
have to step in and look at some of the things that we have 
done or need to do or have neglected?
    Ms. Cruz. The Special Inspector General for Iraq 
Reconstruction (SIGIR) has spent a lot of time in the last 
three years gathering information that we feel it is important 
to analyze and then provide back to the Congress broader 
recommendations on how to do this better.
    And one of the conclusions we always end up at is that the 
interagency process is not functioning well. Most of the 
problems that you will see in Iraq occur at the point where two 
agencies have to do something together. And because the funding 
is not singular sources of funding, whoever has the funding is 
the one that gets to make the decision. Because the lines of 
authority, the chain of command issues are not joined or 
coordinated, you very often have problems in the gap between 
one agency and the other.
    I can tell you that our organization is working very hard 
on a capping lessons learned that will be beyond the Goldwater-
Nichols suggestion that we had in our third lessons-learned 
report on program management. And we are going to try to 
morefully try to develop some suggestions for the Congress on 
ways that they could address that.
    But fundamentally it is the way the U.S. Government is 
organized today. It is not, in our opinion, organized to be 
able to carry out this type of a mission. At no point is there 
a single decision-maker who can arbitrate between the various 
agencies that have very different views on what needs to occur.
    And when it comes to things like PRTs, like governance, in 
the case of Iraq, there is very much the need for a single pool 
of funding, I think as Michelle pointed out. I think that was a 
great point that we are looking at, as well. There is a need 
for a coordinated line of authority that will distinguish 
between the Department of Defense's priorities and the 
international development priorities in an area and be able to 
make decisions that consider both.
    There are some major changes that Congress will need to 
look at. There is a lot of discussion beyond Goldwater-Nichols 
that CSIS has participated very heavily in. And the Congress 
has talked very much about this. There are a lot of efforts out 
there now, both at the Department of Defense and Department of 
State. The coordinator for reconstruction and stabilization at 
the State Department and Department of Defense directive 
3000.05 begins to look at that.
    But, in our view, there is a lot of discussion and there 
are a lot of words on paper, but until we can actually come up 
with a structure that can supplant the stovepiped way in which 
DOD and State and USAID operate, we will not be able to 
overcome the systemic challenges.
    And it is purely because of the effort of individuals who 
get it and are able to work with each other that this program 
is even functioning.
    Dr. Snyder. Do either of you have any comment about 
Congress's role in this?
    Mr. Barton. I think you have a very dynamic opportunity, 
because there are so many flaws in the existing system.
    First off, it starts with the leadership. It is amazing 
that, within our government, there are probably not five or ten 
people that have been designated, been given the opportunity or 
have been trained or prepared in any way to provide the 
leadership on the ground in these kinds of situations.
    We have a space program that, if we were to say to the 
American people, ``I found somebody on the street two weeks 
ago, and I put him in the capsule, and he or she is going to be 
going up for the next ten days,'' the American public would be 
shocked. And yet that is how we have recruited our top 
leadership in these countries, our top nonmilitary leadership 
in these countries. It is absurd.
    There should be people who have the opportunity to prepare 
themselves and think about a place like Pakistan for the next 
year and a half in case something were to really go wrong. 
Maybe we should have competing teams. It would probably cost us 
50 people from all over the U.S. Government that we would put 
aside and put them into that kind of situation where they would 
actually be prepared.
    Now Jerry Bremer actually knows what he is doing; he might 
be of value. That was not the case when he was recruited for 
the job that he was put into. He never had that experience 
before.
    So we are doing things that are patently foolish and 
wouldn't be tried in any other part of our government, and 
certainly wouldn't be put to our public that way.
    The funding issues, the same idea. We have to have clarity 
of funding. We have to have much clearer authority.
    The problem is much deeper than just between departments. 
If you go into the State Department or if you went into AID or 
if you went into the Defense Department, you could have some 
really good internal warfare right there. In fact, we have the 
State coordinator for reconstruction and stabilization, and 
that office isn't even given a license to operate in a couple 
parts of the world yet because the geographic bureaus are 
resisting it. That happens, as well, in the Pentagon.
    So these are the kinds of things if you call forward and 
you tested people on them and you say, ``We are not going to 
stand for this,'' generally inside of the bureaucracy, if one 
Congressperson or one or two staffers get interested in 
something, there is a tremendous amount of responsiveness. 
People think the entire Hill is mobilized to take on the issue.
    So I would say you have real opportunities, and they are 
part of a national tragedy that we, those of us who have worked 
in this field, have seen for the last few years ago, and it 
really is deeply unfortunate.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. Thank you, Dr. Snyder.
    Just proceeding along the same lines, it seems that some of 
the lessons that we are learning, perhaps the hard way, over in 
Iraq are things that we could have remembered from our own 
history. If we take a look at how America was built, it wasn't 
built by starting in Washington, D.C. It was built by little 
towns and communities that came together in 13 states in all.
    And it appears that our greater successes, at least from 
what we are hearing, that are happening are more with the local 
governments and our breakthroughs by having enough troop 
strength to be able to be a significant positive influence in 
building local communities together. And the model that 
suggests itself was the federalism that a lot of us have been 
talking about but didn't quite know how to get it going.
    That being the case, the thing that seems a little 
consistent of your testimonies and that seems to raise a 
question is that--particularly, Ms. Cruz, your comments. You 
gave us a whole list of all the reasons why it won't work and 
said, ``Yeah, but we are doing pretty good, all things 
considered.''
    What is your sense of your ability to contribute to the 
building of the local towns and governments and developing some 
sense of structure and organization in Iraq? Do the PRTs 
contribute to that, or is it just something that the tremendous 
extra resources of the military brings to bear? Are they the 
main player there?
    What is your niche, and how is your niche different than 
what military commanders would be doing?
    Ms. Cruz. Just for clarification, our organization provides 
oversight of the program people who actually do the work, so we 
are sort of the independent view of what they are doing.
    From what we have seen in the field--and it is very true, 
we did point out that there are a lot of problems and it is not 
going very well. But for all of that, there is progress. There 
is progress that you can point to in just about every area. The 
provinces have developed basic capacity to govern at the local 
level. That is a general statement; it varies widely from 
province to province. The more developed provinces don't have 
that issue. When you talk about Kurdistan, they have no issues. 
But when you start to go down south, some of the smaller 
provinces do have issues.
    But the PRTs--and I have to sort of comingle the two 
things. The PRTs and the military presence in the area, both 
working their own areas and working together, have had a 
palatable effect on the ability to govern in these areas. We 
will have some specifics on it in the audit that we are going 
to release in two weeks.
    But from what I have seen, there was no local government. 
It was a very centralized Saddam Hussein-controlled government. 
And in the intervening time, these local provincial councils 
have started to get engaged. They are talking about putting 
together plans for what they need to do in their communities. 
They are having discussions. There are major sectarian 
divisions that have to be overcome in some of these areas, and 
that is hindering progress.
    And one of the biggest problems is there still is not a 
provincial powers law, which in fact gives these local 
governments any clarity on what it is they are supposed to do. 
So, in some cases, the seeds of democracy have been planted and 
they are beginning to talk, but they are not yet able to say, 
``I have the ability to direct reconstruction programs to occur 
or to direct the chief of police in my area.''
    So there has been progress. It has come a long way from a 
full stop. There was no local government, and now there are the 
beginnings of local government. But there is a very long, very 
difficult road ahead. And whether they are going to be able to 
actually coalesce into governments that are able to provide the 
basic functions and the essential services for their citizens, 
I don't know that that is going to happen.
    Mr. Akin. Are we waiting for Baghdad to basically give them 
that authority? Or can we, at the local level, working through 
the military, say, ``Okay, we are designating you. You are 
going to take care of police, and you are going to do 
education, and you are going to do health care, and this is a 
local issue and just take over and take charge''?
    Do we have the authority to do that, or are we still kind 
of waiting for Baghdad to?
    Ms. Cruz. It is dependent on the Iraq Council of 
Representatives to give them the legal authority to be able to 
run their own affairs. We are talking the Iraqis, in this case. 
And everything that the PRTs do is trying to assist the Iraqi 
authorities in getting clarity in what it is they are supposed 
to do.
    But we are hamstrung by the pace of the Iraq Council of 
Representatives. Until they pass that clarifying legislation, 
these local governments do not have the authority yet to take 
action.
    Mr. Akin. Thank you.
    Ms. Cruz. Can I comment?
    Mr. Akin. Yes, please.
    Ms. Parker. Because this mirrors the situation in 
Afghanistan.
    When I got there, there was no government; there was a 
transitional government. And yet we were there trying to do 
reconstruction and align it with a ministry of education plan 
that didn't exist.
    So PRTs are actually there to help facilitate this very 
ambiguous, opaque time that we are waiting for the local 
government to develop and to build these rules and regulations. 
And as Rick said, it matters because it is their government. So 
we have to somehow push it along but not push too much that we 
get the cart before the horse.
    And it is a very difficult thing to manage. And that is why 
you do see progress but you also see a lot of these problems.
    Mr. Barton. Just one quick comment, if I could.
    There is tremendous local opportunity, oftentimes much 
greater local opportunity than there is central government 
opportunity. But we tend to come in as a Federal Government and 
we tend to look for counterparts.
    And we were just having a little conversation here before 
the hearing began. And we said, how long would it take to get a 
really good, competent, new, say, part of government working in 
Washington? And the consensus answer was, maybe, the Department 
of Homeland Security, ten years. Well, what is it about Kabul 
and Baghdad that makes it easier to do that there?
    And so, you really have to go where the opportunities 
present themselves. They do present themselves in a very rich 
mix: not always a local mayor, not always a decent governor, 
but almost always some kind of citizen group. And the creative 
people, whether they are lieutenant colonels in the south of 
Baghdad or whether they are AID workers in Afghanistan, tend to 
find them. And so we have an entrepreneurial tradition here of 
finding them.
    But what you then have to get to is critical mass and how 
do you get enough of it going that you really feel that it has 
a transformative effect even though you are really there as a 
catalyst, you are not there as the owner, you are not there as 
a colonial power. These are very fine lines which I think 
oftentimes get a little bit confused by, sort of, the military 
tradition of, ``You are in there; you are in charge.'' And that 
is not really what is happening in this transition phase.
    Dr. Snyder. Mrs. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    And thank you all for being here. I am really glad that we 
are talking about this today. And I know that all of my 
colleagues have, at one time or another, had a real interest.
    Can we go back just a little bit? Because I know you are 
talking about extenuating circumstances. Certainly Iraq, 
Afghanistan have a very different approach and response, in 
many ways. But I want to just go back to building the skill 
sets that are required to do this.
    If we think about where do we want to be 15 years from now 
perhaps and training the next generation of people, one of the 
things that has really stuck with me, when we were talking 
about Avian flu issues a while back when a few of us were 
involved in that and working with the State Department and DOD 
and some other folks, the image of basically a State Department 
kindergartener working with a doctoral person from the military 
was suggested; that here you have--it is that asymmetrical kind 
of relationship, because the military people are trained over a 
period of multiple assignments and posts so that those skills 
begin to develop.
    But it seems to me we don't have anything even comparable 
to that exactly in the State Department. USAID, perhaps. I had 
a chance to look at a few USAID programs in Africa over the 
break and several countries and trying to think, how do you 
bring that together? I mean, it is nation-building skills, I 
guess. But where are these skill sets?
    I mean, how do we incentivize young people to think not so 
much, perhaps, ``I want to go into the military some day''--of 
course we want to encourage that. But what is it that brings 
young people today to say, ``I want to be part of that kind of 
an effort somewhere''? Is that important? You know, is that 
relevant? How do we begin to do that?
    I know that we want to leap ahead, you know, today in how 
we do these PRTs, but I also think we need to step back a 
little bit. How do we develop that?
    Mr. Barton. Well, if I could start on this, I had the good 
fortune to start an office in the USAID that is called the 
Office of Transition Initiatives. And we found that there was 
no shortage of Americans and international partners who wanted 
to do precisely this work.
    And I would say that it is probably the most desirable 
place now to work inside of AID, because people see this as 
important work that they would like to have an opportunity to 
do, and that there was some flexibility that Congress had 
provided, notwithstanding authority, so that there was the same 
kind of opportunity that you have in humanitarian disasters to 
deal with these kinds of complex cases.
    On the other hand, it is a very limited operation. It is a 
boutique, and we are in the mega-mall world right now. So what 
is the advantage of the United States having had created 
probably the most innovative little office that doesn't have 
the ability to do very much? It hasn't taken hold.
    Now, what I have seen over the last couple of years is, as 
we have come to a realization that our intelligence community 
doesn't have the talent it needs, the intelligence community is 
recruiting a lot of young people, a tremendous number of young 
people. So jobs are provided inside of our intelligence service 
to do this kind of work.
    But I have had a chance over the last few months to do a 
listening tour here in the United States. One of the questions 
I have asked almost every audience I have been with, I have 
said, ``If you were running the State Department and you had a 
choice of spending $500 million to build a new embassy in 
Baghdad or $500 million to train just 500 Americans to be 
language-capable to operate skillfully on the ground in a place 
like Iraq, which would you choose?'' out of 500 or so Americans 
that I have asked that question, only two have said the 
embassy. When I asked them, ``Which one do you think the U.S. 
Government did?'', all 500 people have said, ``The embassy.''
    And, by the way, since I started asking the question, the 
price of the embassy went up to $600 million.
    So we are not making critical choices. And that is exactly 
what the Congress can help direct. But people will say, ``Well, 
no, we have the money to do that, and if we are going to have 
an embassy, it has to be secure.'' Almost all Americans know we 
have to be more skilled.
    When you read Ginger's testimony, she describes how few 
people are language-capable and how dependent we are on people 
whose lives we then put at risk by asking them to help us with 
language.
    I mean, these are the kinds of things that are just way out 
of balance. In every audience, whether it was at Bob Jones 
University in Greenville, South Carolina, or the University of 
Iowa in Iowa City, they came to the same conclusion, so what is 
keeping us from reaching those kinds of conclusions?
    Ms. Parker. The other issue is that there is a number of 
young people who desperately want to go out and do it but 
simply don't have the time in field to get the jobs. A number 
of my friends just finishing graduate school are dying to get 
out to Iraq and Afghanistan and serve their countries in a 
civilian capacity, but they haven't had the three years of 
experience. I don't even know if I could get a PRT job now, 
having had the experience going into it originally.
    So when you are looking at this, sometimes there are 
unrealistic expectations. So we also need to design a program 
to recruit very talented people that may just not have the 
perfect skills, put them into a six-month or year-long training 
and bring them out. There needs to be some kind of middle 
ground as well.
    Dr. Snyder. Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    And I want to thank all of our witnesses.
    I must say, I am sitting here getting a little discouraged 
on your testimony in regard to the effectiveness of the PRTs. 
And I know the Chairman, maybe it was the ranking member, asked 
about maybe what Congress could do or what we should be doing.
    To be honest with you, I would guess that outside of the 
House Armed Services Committee there are not too many members 
of the House that know a whole lot about PRTs and may not even 
understand what the initials stand for.
    It has been a good hearing, though. And we appreciate the 
information that you are bringing to us, albeit, again, I say a 
little discouraging.
    Let me just ask a couple of specific questions, and any one 
of the three in any order is fine.
    In regard to the embedded PRTs, I don't fully understand 
the difference, except, I guess, in the number of personnel 
involved, in a regular PRT and embedded PRT.
    But tell me this. I would like to know about the command 
and control relationship of the embedded PRTs within a brigade 
combat team.
    And the other question is somewhat interrelated. Is there 
an overall PRT coordinator in the Department of Defense that 
interfaces with the State Department? If there is not, should 
there be? Because it just seems to me that, in your testimony, 
that you talk about a bunch of Keystone Cops or something.
    You go ahead and address those two questions.
    Ms. Cruz. I will. Thank you very much, sir.
    An embedded PRT differs from a primary PRT in that the 
leader of an embedded PRT is the brigade commander, so the 
military is the one that directs the work of the embedded PRT.
    And right now, as it is structured, there are four people 
that staff that: a Department of State employee, a civil 
affairs person, a bilingual-bicultural advisor who speaks the 
language, and a civil affairs officer. But the direction comes 
from the brigade commander, so it is very military-directed.
    The primary PRTs are led by the Department of State, so, 
very often, it is a foreign service officer who will lead the 
primary PRTs. And they will interact with the brigade 
commanders, but they are the ones who make the call on what the 
PRTs do. And they have about 100 staff, on average, whereas an 
EPRT has a smaller area of operation and it is usually four 
people.
    Dr. Gingrey. Do you ever have the two in the same area of 
responsibility?
    Ms. Cruz. No, you don't. The PRTs each have a unique area 
that they will have responsibility for.
    Dr. Gingrey. So you couldn't find a PRT and an embedded PRT 
team in the same area?
    Ms. Cruz. No. No, you would not.
    And then, on the command and control structure, you are 
absolutely right. I think I alluded to that in my testimony; I 
was not as clear as we would like to be.
    The overall lead for the PRT program is a Department of 
State individual who leads the Office of Provincial Affairs. As 
it is currently structured, there is no high-level Multi-
National Force-Iraq (MNFI) representative that coordinates with 
the State Department lead of the program.
    Now, there is extensive interaction all the way through the 
organization. Brigade commanders and corps officials are very 
involved; civil affairs is very involved. So all the way 
through the structure, there is a lot of lashing up. But when 
you get to the top, there is not a high-level person on the 
military side that sits at the right hand of the person who 
leads the PRT program, who, at the moment, is an ambassadorial-
level position within the embassy.
    So that is an area that we think could be improved. Because 
while the coordination works in the field, when it comes time 
to make those interagency connections and to work policy that 
reflects both the military and the civilian needs, that policy 
is pretty much decided at the Department of State level and 
lacks that high-level military interaction.
    Dr. Gingrey. Ms. Parker.
    Ms. Parker. In Afghanistan, we have something called the 
Executive Steering Committee that has every ambassador from a 
troop-contributing nation together with the minister of 
interior for Afghanistan, because PRTs fall under the minister 
of interior for the Afghan Government. So what you have is, 
every two months, we have a meeting where all the leadership 
comes together and creates policy--this is where the 
International Security Assistance Force (ISAF) PRT handbook was 
created, this is where a number of the initial terms of 
reference were created--and determining what the PRT should be 
focusing on. For example, should they be supporting 
counternarcotics? This is very contentious in German PRTs and 
Italian PRTs. So that is where all those issues get worked out.
    And then there is a subworking group of folks like me that 
would go on a weekly basis and try to hammer out these issues 
and prepare our ambassadors for this larger meeting. Within the 
U.S. Government, State, AID, and DOD each had their own PRT 
coordinating office, and they met on a weekly basis.
    Dr. Gingrey. Mr. Barton.
    Mr. Barton. Just quickly on the discouraging side, I don't 
think any of us want to be discouraging. I think that we 
believe they these PRTs have value, that they have an effect, 
that they are probably the right idea. The larger problems in 
Iraq and Afghanistan limit how successful they are going to be. 
That is my greater concern.
    And so, they are terrific in terms of extending America and 
its allies reach into places, its presence, its connections, 
the insights about these. They can be agile; they are 
catalytic. Those are the strengths. But they also have had a 
lot of other problems that are really larger than the PRT 
problems but they happen to show up rather clearly in the PRT 
case.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Dr. Snyder. We will now recognize members who arrived after 
the gavel began the meeting in the order in which they arrived. 
And first will be Mr. Davis, followed by Mr. Cooper.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    One of the things I would like to point out, this is an 
issue that many of us on the committee and in the Congress have 
a tremendous amount of interest in. We are going to be coming 
to you separately. Congresswoman Davis and I are forming an 
interagency reform caucus, or national security reform caucus, 
to talk about ways to make the changes that are necessary in 
the long term.
    Just reading through the State Department job descriptions 
on the Web site and having worked in the consulting world and 
also overseas in the peacekeeping business, many of it are 
nonstarters because of the need for entrepreneurial 
personalities.
    And I think the State Department culture, quite frankly, 
perhaps at one time it fit the needs of the country, but I 
don't think it does right now.
    And I share Ms. Parker's point of view, having seen many 
young people who are desperate to get to the field but can't 
get to the field, are willing to learn on the ground and do 
what I think is most important for the long term, is build 
long-term personal relationships with people in these regions 
that transcend just about everything to get things done.
    One of the comments--I would like to start with the 
Afghanistan model, having wandered around there a little bit, 
and then move over to Iraq.
    What do you think, speaking from your position and 
experience, is necessary legislative reform to make this work 
to come up with the expeditionary-type of environment or group 
that we need in the long run?
    I would go probably a little bit beyond Mr. Barton's views. 
We don't need just 50 people, but my sense would be, in order 
to move to the diplomatic level--I know many people have this 
desire to get to the ambassadorial level--that perhaps they 
have got to spend a significant portion of their lives really 
doing something, as opposed to going to cocktail parties.
    And the one thing, I think was said, many of my colleagues 
from the military who found themselves running areas of 
expertise in PRTs--for example, one who ran agricultural 
programs at one point in Afghanistan, who had absolutely no 
farming experience whatsoever, but she was a tremendously 
motivated officer in terms of coming up with creative 
solutions, understanding some of the cultural issues.
    I would like your thoughts on where we go with this, from a 
personnel policy standpoint, and, really, if you could be the 
dictator for a day, what you would come up with.
    Ms. Parker. First, I would calm down all the agencies and 
say we are not going to completely revamp who you are. I think 
there is a big fear--I can speak for USAID--that the entire 
agency's foundation is going to change and suddenly we are 
going to be fighting a war. A lot of people join USAID because 
they are humanitarians and they want to help people.
    So I think that first we have to say we are not going to 
radically change the existing bureaucratic structures that are 
there. But what I would offer is we need to create a new 
bureaucratic structure of some kind that combines all these 
efforts of the three D's, if you will.
    Mr. Davis of Kentucky. Are you saying flattening out the 
existing structures to accommodate that?
    Ms. Parker. I would say cutting off pieces of it. Or, well, 
that sounds a little too violent. But like he was saying with 
Office of Transitional Initiatives (OTI), expanding the concept 
of OTI.
    Mr. Davis of Kentucky. That can be a humanitarian gesture 
if you want to----
    Ms. Parker. But we need something in which you can take 
directive 3000.05, you can take what is being done at OTI, you 
could State Department Office of the Coordinator for 
Reconstruction and Stabilization (SCRS) and join them together.
    For me, the natural fit would be in the national NSC. That 
seems to be the coordinating body or structure that should be 
doing a lot of this stuff. Now, I don't know if that makes 
sense.
    But I would say bring those different elements together and 
form something specific to this kind of war, because it doesn't 
need to change the whole foundation of AID or the State 
Department. Drinking cocktails is a very important part of 
everyone's job, but it isn't necessarily for this mission that 
is taking place at this point in time.
    So I would just caution it, that it doesn't need to be 
radical but maybe just taking the strengths of each one to 
create that unity of effort that you mentioned.
    Mr. Davis of Kentucky. I will throw this open to the group. 
Do you think having an empowered deputy secretary in all of the 
agencies who can speak for the secretary--for interagency 
operations or coordination would be helpful?
    The reason I am asking the question is when you get out 
into the field and boots on the ground, as long as the 
personalities were reasonably compatible, they could do great 
things. And typically, they are not unlike corporate 
turnarounds; it is the middle management that becomes more 
problematic, dealing with that aspect of the bureaucracy.
    Mr. Barton. I am not sure that I would move in that 
direction, but I can give you a couple of other suggestions 
that you might take into consideration.
    I think the concept of the civilian reserve corps that is 
now being promoted by the State Department's coordinator for 
reconstruction stabilization has potential. It could be a step 
in the right direction.
    There are tens of thousands of Americans who like doing 
this kind of work and they find a way to do it, whether they 
are young or old or whatever. And we have to know those folks 
better.
    There is really no part of the U.S. Government that is 
really a good executive recruiter. It is done pretty much on an 
occasional basis. So you have to set up something that has a 
reserve quality to it that gives you the quick response 
capability.
    But then we also have to think well beyond Americans in 
these jobs, and we have to recognize that to get the kinds of 
people that you want in the right place at the right time with 
the right skill sets, it may well be a global recruiting 
effort.
    That is what we did initially in Haiti in 1994. It is 
because we had been informed by what had happened to us in 
Rwanda in 1994, and that is that there were not enough human 
rights experts who wanted to go into Rwanda after a genocide to 
serve as human rights monitors. So you had to expand the search 
right away and work on three-month contracts. That is sort of 
the way we create these jobs. So I would do that.
    I would think about a war--the war czar concept at the NSA 
is not a bad one. There probably should be somebody, a national 
security advisor for these kinds of cases, as opposed to 
expecting that our national security advisor can go from 
dealing with North Korea and Iran and then is going to worry 
about the war in Iraq and Afghanistan in the afternoon. It just 
doesn't happen. Human beings cannot multitask these sorts of 
complex matters successfully.
    Expand the offices that are working, which I think is what 
Michelle was suggesting, and then really get agreement at the 
top.
    The Dutch model is that the three key ministers--defense, 
development and foreign affairs--they are the group that 
manages what they are doing in Afghanistan. Now, when our two 
Cabinet officers, Defense and State, showed up in Iraq together 
at one point, it was hailed there as the first arrival of the 
unity government that we were arguing for here in this country.
    Anyway, we can see that we have big, big problems at a lot 
of different levels here, and I think it has to be a little bit 
more radical. It doesn't require a whole reorganization. But I 
would say that AID could focus on this work in a much, much 
greater basis than it is. At least 30 percent of AID should be 
focused on this, rather than treating these things as if they 
are one-offs, which is also, by the way, the way the Defense 
Department and the State Department are treating these events, 
even though this is what we have been doing for the last 14 
years.
    Dr. Snyder. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I thank the witnesses.
    You mentioned the Dutch example. Are there other lessons we 
can learn from other nationalities and PRTs?
    Ms. Cruz. There are. The Department for International 
Development (DFID) has a model which we have been studying as 
we are looking at making recommendations to the Congress. The 
example of the United Kingdom actually provides some possible 
ways that we could move one of them.
    Dr. Snyder. What is DFID?
    Ms. Cruz. It is the corollary to USAID in the British 
government. Right now USAID is subordinate in government to the 
Department of State. So we have State and Defense that work 
together. In the government of the United Kingdom, they 
actually have three cabinet-level agencies which would be the 
corollaries to our Department of Defense, USAID and Department 
of State.
    And one of the things that they have done is create 
something called conflict pools. So when there is funding that 
is designed to do relief and reconstruction work, rather than 
that funding going to the Department of Defense or Department 
of State, which is the beginning of a lot of coordination 
challenges, that money is put into one fund, and then it has to 
be jointly decided upon by the three agencies.
    They have had limited success. There are challenges to it, 
but it is one of the models I think that could be looked at 
that we might want to consider.
    Ms. Parker. The Danish also have the same thing in 
Afghanistan, where, if it is a small pool of money, the 
military can directly fund it. If it is anything over $20,000, 
the development person must be involved. And then the 
development person also has their own fund.
    There are three separate funds that all are operating out 
of the PRT. And we found that was quite successful.
    Mr. Barton. Even Singapore has its own little contribution 
that it is making in Bamiyan in Afghanistan. And they have done 
a particularly good job probably of figuring out what the needs 
of the place were before they offered a solution.
    Mr. Cooper. It is humbling to be bested by these little-
bitty countries.
    How about individual training, the skill set that 
individual foreign workers bring? Are they trained?
    You mentioned the NASA example. We wouldn't send anyone 
into space.
    Are these foreign aid workers better trained, language or 
otherwise?
    Mr. Barton. I think it is a mix. I mean, I don't know of 
any place--I know, at least reportedly to me, the British are 
doing a much better job of preparing the people that are going 
out to the PRTs. Whether they arrive with greater skill sets or 
not, I am not sure.
    But at least the concept of training--I had a call this 
morning from NPR, and they are doing a story on the training. 
And the U.S. training now for State Department people is 
somewhere between a week and two weeks for a PRT. And much of 
the training is on security and personal safety. That is 
probably not going to be adequate for the complexity of these 
things.
    We found when we were hiring people--because I set up 
operations like this in about 15 different countries over about 
a 6-year period in the 1990's. And I thought that there were 
three critical skills that needed to be apparent in anybody you 
put on the ground. One is they had to be sort of political 
organizers; they had to be community organizers. Second, they 
had to be extremely comfortable living in the place, like a 
Peace Corps person. And the third, they had to have the edge of 
a military or humanitarian worker, of just doing it. Lives have 
to be saved, we have to take action.
    Those three skill sets I could almost never find in a 
single individual. So what you ended up doing is you would hire 
two people that you would hope would cover the three skill sets 
and that the cultures they came from wouldn't be in conflict 
with each other.
    The opportunity is there. There are a zillion Americans who 
have these abilities and the desire to get on with this kind of 
work. Many of them are out there are as missionaries or as jazz 
pianists or whatever it happens to be. You run into the oddest 
combination of Americans everywhere.
    So I believe we could do it here. But it is not that--we 
are not giving them the guidance that we need from here.
    Ms. Cruz. A couple of things to point out is that one of 
the problems we have is security clearances. A lot of the 
times, the people that need to work at a PRT need to have 
security clearances. Well, the people who can get security 
clearances are generally the ones from the United States that 
have never travelled outside of the country and have very 
little ability to speak another language, which is not what you 
need. Only 29 out of the 810 spots right now for PRTs are 
bilingual-bicultural advisors who can speak Arabic and 
understand the Iraqi culture.
    Mr. Cooper. I saw that in your testimony.
    I also saw that we are 200 State Department people short. 
Someone mentioned the lack of career performance if you take 
these jobs. What about basic pay?
    What did you make, Ms. Parker, when you were in 
Afghanistan?
    Ms. Parker. At my last job, I was a GS-14, step four.
    Ms. Cruz. I think part of the problem is the culture.
    One of the things that I was told that was very shocking: A 
junior foreign service officer that I just spoke to just last 
week at the Baghdad PRT told me that he was very interested in 
the Middle East; he had just started working in this area. He 
had Spanish and French as two languages. And he had just come 
on as a junior foreign service officer, and he was asking the 
State Department if he could be trained in Arabic because he 
was very interested in the work that he was doing. And he was 
told they would not train him in Arabic because if he was 
trained in three languages, he would have an unfair advantage 
over other individuals in the foreign service and that that 
would cause an imbalance in the system, which I found to be an 
interesting point.
    Dr. Snyder. That is why we don't offer language training to 
Members of Congress. It would cause an imbalance.
    Mr. Johnson.
    Mr. Johnson. Yes. I am going to talk a little bit about 
money.
    Thank you, Mr. Chairman.
    The contract civilian employees employed on the PRTs, are 
they necessary? And if so, why?
    Ms. Parker. Well, I was one, so I think I was necessary. 
[Laughter.]
    USAID has a hiring mechanism called the personal service 
contract, in which USAID hires me directly; I was not in the 
foreign service. And basically I can give a two-week notice and 
quit. But I directly worked for USAID, and I got all the 
benefits: diplomatic passport, you name it.
    That is a critical function. And I think that is part of 
why USAID has been able to staff differently than the State 
Department, who requires drawing it from their own resources.
    The other contract employees that you might be talking 
about from, what, the local nationals or who?
    Mr. Johnson. What roles do the other contract employees 
fill on the PRT?
    Ms. Parker. Well, we had contracted interpreters that were 
hired through a mechanism, and there is good and bad with that. 
I found that having a local who actually knew what was going on 
and knew the political environment was more useful than 
necessarily having somebody with a security clearance, but I 
wasn't doing security-cleared-required work.
    The other contracted employees we had was DynCorp police 
trainers. And that was useful because the police program was 
not particularly well-coordinated with our PRT. So by having 
them living on the base, it helped with coordination.
    Ms. Cruz. In the case of Iraq, there are very few contract 
employees relative to the overall effort. In the case of State 
Department and Department of Defense, they use their own 
employees or else they use 3161 hiring authority, which allows 
them to hire temporary Federal employees.
    In the case of translators and some of the other bilingual-
bicultural advisors, they do use contracting mechanisms. But 
most of the individuals that staff the Iraq PRTs are either 
temporary Federal hires or else are employees of the variance 
agencies.
    Mr. Barton. I don't think you could possibly do the work 
out there unless you had personal services contractors as well 
as some private contracting. There just isn't the pool of 
talent in the U.S. Government to even get started on these 
jobs, as presently set up.
    And just on the security clearance thing, we have to take a 
huge review of that. It is absurd. One of my very best people 
working in the Balkans, I knew he had been arrested for civil 
disobedience. I liked that quality. He had been outside of the 
governor's office in Alaska, and he had been causing a lot of 
problems. And we were taking on Milosevic in Serbia, and he 
struck me as if that was about as good a credential I could 
come up with. And after we did the FBI security check on him, 
six weeks later they came back and told me that he had been 
arrested for civil disobedience. And I said, ``Well, we already 
knew that,'' and, in fact, this was exactly why we were hiring 
the guy.
    So we have to change this model. It is costing a lot of 
money. It is taking a lot of time. It is not getting us the 
candidates we need, and it is putting us in second place.
    Mr. Johnson. In Iraq, where the PRTs are commanded by 
military personnel--correct?--versus Afghanistan, where it is 
State Department? Or do I have it backwards?
    Ms. Cruz. Now, actually, Iraq has both models. Iraq is sort 
of a conglomeration of several different approaches, so it is 
very unclear, and I apologize. It is difficult to explain 
because it is confusing to the people who actually run it. 
[Laughter.]
    The main PRTs are run by a State Department lead, and the 
embedded PRTs are run by a military lead.
    Mr. Johnson. In both circumstances, as well as in 
Afghanistan, who makes the decisions as to who to hire, from a 
private employee standpoint?
    Ms. Parker. In Afghanistan, it really depends. For example, 
the embassy contracted the DynCorp folks who were doing the 
police training. So it was an embassy decision. And they made a 
deal to have them live at the PRTs versus in some secure house 
in the city. Whereas the military had a fund to hire local 
nationals, and I did, as well, as USAID. So it is really a 
mixed bag.
    Ms. Cruz. In the case of Iraq, the decision to hire 
primarily rests with the Department of State, which has gone 
out, cast a very wide net and tried to get as many people as 
they could with a match in skill sets.
    And then what they do is the secondary screen would be the 
PRT leaders, who were usually State Department folks at the 
primary PRTs, would then screen and say what types of skill 
sets they wanted. So if they needed more agricultural advisors 
or if they needed economists, that would be the type of person 
they would look for. And then they would be able to hopefully 
pick people that would be a better match for their PRT.
    Mr. Johnson. Let me ask this question. Do the civilian 
contract employees get paid from any of the Quick Response 
Funds (QRF) or CERP funds or the local government and community 
development program funds? Do any of those funds go to any of 
the contract employees?
    Ms. Cruz. They do not.
    Mr. Johnson. Is there some other pot of money that the PRT 
commanders, if you will, control that pays the civilian 
employees?
    Ms. Cruz. It is more of an operations and maintenance (O&M) 
budget issue for the Department of State. And that is one of 
the limiting factors, because they don't have sufficient funds 
to hire as many contracted employees as they would like.
    So one of the limiting factors in their being able to bring 
on more contractors at the State Department is the limitation 
and the amount of funds that they have to hire people to staff 
the PRTs.
    All of the money right now that is appropriated through the 
supplemental and through the main State Department is for 
actual program work and, not only for projects, but for the 
operations of the PRT.
    A lot of the staff--it is hard to nail down where the money 
is coming from because the State Department eats the salaries 
and the contract funds within their operational budgets.
    Dr. Snyder. We will go to another round here if you have 
the stamina for it. We will start the clock again.
    I think I will address this question to you, Mr. Barton. 
And I have questions for Ms. Cruz and Ms. Parker.
    But some years ago, I had to have heart surgery, and the 
surgeon that did the work was one of these guys who had two 
rooms open at any one time, had complete surgical teams in 
there, and he would go to one room and do his little thing. He 
would go in the other room, and they would have it all opened 
up, and he would do that little thing in there. Then the other 
teams would be closing, and they would clear that out.
    So my question is this: Are the PRTs, or should they be, 
like that surgeon that has all this support going on like our 
military, in which the military does all this work at great 
risk, personal risk, to get the PRTs in there to do their work? 
Or are they similar to the person that, when I get back to the 
room, delivered the flowers to my room?
    Do you understand what I am saying? Are they ultimately 
what this is all about, in terms of the military activity to 
get our folks there? Or should they be?
    Mr. Barton. I am not sure that I do understand the way you 
structured the question.
    Dr. Snyder. Well, what I mean is, we have all this military 
activity. Should we, in terms of how we think about this, 
should we think in terms of the whole purpose of this military 
activity is provide enough security so that our PRTs can 
operate? Or should we consider it is like a bonus.
    Mr. Barton. I believe the primary responsibility of the 
military is to establish a new security and public safety 
order. That is their primary responsibility. They have to do 
that.
    Then ideas like the PRTs or NGO activity or other kinds of 
things can flower in that kind of environment. But if you don't 
take care of that first piece, then you have to make your PRTs 
something that really has a heavy, heavy, heavy security 
component. And what you are trying to do is do development work 
in places that you still have almost war going on.
    I happen to think that is the value of the PRT model as 
opposed to the NGOs and everybody else out there, that they can 
operate in that semidangerous or even dangerous environment, 
whereas you don't want to really expose your entire civilian 
capacity----
    Dr. Snyder. Which you discuss in your written statement.
    Ms. Cruz----
    Mr. Barton. But did I answer your question?
    Dr. Snyder. Yes, I think so. It probably wasn't the best 
question.
    But I am trying to get at--because we hear the discussion--
you know, we will hear from General Petraeus--this war is not 
going to be solved militarily. Okay, what is going to solve it?
    Mr. Barton. It is not likely to be micropolitical activity. 
It is likely to be macropolitical activity.
    Dr. Snyder. Right. But the question is, is this part of 
what leads to, you know, all politics is local.
    Mr. Barton. It can be helpful, but then you need critical 
mass. And that is why we described--well, we suggested in our 
paper on Afghanistan, as in my testimony, that you better go to 
the toughest places and you had better have enough going on 
there that you can really make a difference.
    When I was asked to go and meet with the 1st Marines in 
Camp Pendleton, we basically told them a year and a half ago 
you should have several of these PRTs in al-Anbar province, and 
who cares what is going on up in the Kurdish areas, because 
anybody can go up there and work.
    So this isn't a military-basing operation. This is actually 
using what you would need in the place that you need it. You 
wouldn't have sent your surgeon into another operating room 
where somebody was having an appendectomy, which is essentially 
what we have done in these places by not focusing them in the 
right spots.
    Dr. Snyder. Ms. Cruz, Mr. Cooper touched on this. You had 
mentioned that you thought things were much further along in 
terms of staffing than they were a year ago and than they were 
when the report came out, the July 15th report. But it seems to 
me that we have still got a ways to go on this.
    I guess it was on page eight, your phrasing was, ``State 
and civilian agencies . . . have identified 68 percent of their 
surge staff, slated to be in place by the end of the year.'' 
That seems abysmal.
    Ms. Cruz. Yes.
    Dr. Snyder. This is the, what, fifth year of the war, but 
you are slated to be identified--you are still saying a third 
of them, by the end of the year, five months from now, haven't 
even been identified. That is an abysmal rate. If this was the 
Iraqis that were doing this, you know, David Walker, this 
morning, would have given them another big F-minus. It is 
abysmal.
    It gets back to the question about the surgeon. We have men 
and women that we all know that have gotten wounded or died, I 
think, to help these folks get out there and do the work, and 
somehow the State Department and all these other civilian 
agencies cannot get their act together.
    I mean, this is an abysmal, failing record for this 
government. Am I right or wrong?
    You say 68 percent have identified----
    Ms. Cruz. It is a very major challenge for the Department 
of State. Yet, if we look at the system, the way that the 
system is structured, it allows that to be the case.
    When you have a State Department system that rewards 
different things--at the end of the day, everybody does 
something that is going to be in their best professional 
interest. I mean, I think that goes for just about everybody in 
this room. And so, if it is not in the professional interest of 
an individual within the Department of State, within their 
career path, to serve in a location such as Iraq, then you are 
not going to have those people volunteering for Iraq.
    I think there has been a lot of progress along that line. 
We have seen a lot of changes in the policies and in the 
statements in the State Department, that, if you serve in Iraq, 
that it will be viewed as something that will put you a step 
ahead of everybody else in your career path because you are 
making that sacrifice.
    But when you come right down to it, the military joins the 
Department of Defense knowing that they could be sent to war, 
knowing that they could die. People who join the State 
Department do not make those same choices when they join the 
State Department. And so, there are family considerations; 
there are the personality considerations. These are not people 
who necessarily signed up five, ten years ago in their career 
to do this.
    Dr. Snyder. And, once again, you are all giving 
explanations for the failure, but it is still a failure. I 
mean, maybe it is Mr. Akin and my failure, I don't know, but it 
is a failure that this thing has been going on for five years 
and we are still----
    Ms. Cruz. We agree.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. Well, I don't think I have additional questions. 
I mean, I see a very big problem, but I don't know that I have 
specific questions for each of you.
    And I think we are all trying to get at it and trying to 
figure out how do you make that next step, and exactly how are 
those responsibilities defined and how do you structure it, how 
do you make it work. And it is a sense of frustration.
    And that has been the thing we keep hearing after years of 
sitting in here taking testimony, we keep hearing that, ``Well, 
the military is there to give us more time.'' Time to do what, 
and who is doing it? And the ``to do what and who is doing it'' 
piece just never seems to happen.
    I think we are getting there now. But if I were king for a 
day over in Iraq, I think what I would do with the Federal guys 
is say, ``Look, you have these two or three or four Federal 
functions, and that is all you guys have to worry about. 
Everything else is going to be done at the local level. And you 
guys couldn't put the local elections together, so we will take 
care of that for you.''
    We would start calling those local elections in Anbar 
province and tell the guys in Anbar, ``Look, here is the deal. 
You are going to run your own schools, your own hospitals and 
your own police station. This is your area, and you own it. And 
so, let us get on with the operation.'' So you basically create 
that federalism kind of thing, which they don't understand but 
they have every reason to love once they get the hang of it.
    But we are just seeing this continuous--and some of it is 
because we have been in Washington, D.C., too long. We think 
the problems are going to be solved in Baghdad or in 
Washington, D.C. They will be solved in the local provinces, 
the local people solving their problems and putting the 
solutions together. We need to get on with that.
    But it is hard to know structurally how do we--and it is 
bad enough--the problem is that there are different committees 
within Congress that started this whole thing, and we have 
trouble just dealing with those. So it can be frustrating.
    But I don't have any questions.
    Dr. Snyder. I have a couple more here, and then we'll 
conclude.
    This issue about State Department--some years ago, I came 
back from a trip of Africa I made by myself and visited some 
ambassadors there. One was in Ethiopia, and one was in Sierra 
Leone I guess, I think was that trip. No, Ethiopia and Eritrea 
is what it was.
    And I was very frustrated with the inability to get the 
postings--I am looking at you, Ms. Cruz, because you addressed 
this issue--the hardship posts, in the State Department jargon.
    And we talked about maybe a GAO study. Well, GAO really got 
a hold of this. They sent teams out I think to China and Saudi 
Arabia and someplace else. All the ambassadors--these were all 
countries with hardship posts--they opened the doors, told 
their staff, ``Tell them anything they want to know. Maybe this 
will help us get our personnel policies right.''
    And the one that was most striking to me was in Jeddah, 
Saudi Arabia. The public affairs person, whatever you call 
that, the public diplomacy person who is supposed to be giving 
the American message to that part of Saudi Arabia didn't speak 
Arabic. Now, it was a requirement, I mean, it was a preferred 
requirement, but they didn't have anybody that would volunteer 
to go there.
    But I don't fault that person. Here is some energetic--
probably a Ms. Parker type, who said, ``I will pick up some 
Arabic. I will work at it. I am going to stay long enough. 
Maybe I am single. I can study Arabic, and I am going to try 
real, real hard.''
    So we are sitting here saying people don't have the right 
skill sets. The reality is we have some pretty tough people 
that are taking on challenges that those of us who--I am a 
doctor; I could volunteer to go--who are trained decide not to 
do.
    And I think we need to be careful about, you know, being 
too hard on these folks, people that volunteer, because they 
are the ones who step forward because our system isn't working. 
And I wouldn't want to come down negatively on that. I was 
going to ask for your opinion, Ms. Parker, but I probably set 
it up.
    One specific question I wanted to ask--and I think you 
talked about this, Ms. Cruz. As we are talking about--I mean, 
there really is some agreement, I think, in this country that 
something is going to change, probably coming in spring and 
beyond, that there will start to be a drawdown of troops.
    I think you make a comment in your written statement, we 
better careful how we do that, that we don't leave our PRT and 
NGO types who are counting on the security to get their work 
done suddenly and gradually not in the secure environment that 
they thought they were.
    Do you have any comment on that?
    Ms. Cruz. I didn't bring that up, and I was remiss in that.
    The PIC process, as it is called, Provincial Iraqi Control, 
is a very serious impediment to the PRTs being able to do their 
work, and yet we do not see any clear sign of coordination 
between the military decision-makers, who make the call on 
changing the footprint of the U.S. military in Iraq, and the 
people who are trying to do the PRT work in the provinces. 
There is not good coordination on that process at all.
    And sometimes the statements are made that the military, 
for reasons of wanting to turn over portions of the country to 
Iraqi military control, they are saying, ``Well, this will be 
good. We will PIC this province, and once that is done, then 
the PRTs will be able to come in, and they can work on 
developing governance.''
    Well, the problem is that PRT will most likely not be able 
to ever get in that province again to be able to have the 
meetings with the provincial governors. And that is the case 
right now in Najaf; that is the case in Karbala.
    There are what are called PSTs, where they take individuals 
who have those PRT skills, they are sitting in Hilla----
    Dr. Snyder. What is the ``S''?
    Ms. Cruz. It is provincial support teams.
    But these are individuals with the same mandate or 
ostensibly the same mission who are sitting right now in the 
PRT in Hilla. And they are unable to make phone calls; they 
have no visibility on the ground. And they are supposed to be 
developing that governance in Najaf, and Najaf right now is 
essentially a black hole. We don't know what is going on there. 
We don't know the ability of the government, and we don't know 
what the capability is to develop that going forward. And that 
is largely because we don't have a military presence any 
longer.
    And so, as the military is looking at the PIC process and 
as they are closing down forward operating bases, the cost 
implications, the presence shift between having a coalition 
force there and not having a coalition force there has a 
massive impact on whether a PRT can perform its mission.
    We are going to look at that a little bit more in our audit 
that is coming out in two weeks.
    Dr. Snyder. And in Mr. Barton's thoughts, what should 
happen is, if this PIC process occurs, it should be a sign it 
is a safer environment, that you don't need the PRTs, that the 
NGO types, the State Department development types should be 
able to go in there unattended, but that, in fact, is not going 
to be the reality----
    Ms. Cruz. It is not the case.
    Dr. Snyder [continuing]. And is not the reality. And it 
means that the work is not going to get done.
    And the last comment I would say, it just seems, once 
again, Mr. Akin--I know Mrs. Davis feels this way and others--
that this whole issue of foreign language training from the 
time we were in grade school--I mean, we still, as Americans, 
are abysmal in the emphasis we put throughout our educational 
system. We don't solve it by starting when people are 25 and in 
the fifth year of their military career and saying, ``Gee, now 
is a good time for you to learn Farsi'' or something because we 
have a dispute along the Iranian border. I mean, that is not 
going to be the way that we are going to solve this.
    We, as Americans, are going to have to start putting a high 
priority on this in our kindergartens and grade schools on 
foreign language, all the varieties of languages.
    Any further comments, Mr. Akin?
    Mr. Akin. No.
    Thank you very much.
    Dr. Snyder. Ms. Cruz, Ms. Parker, Mr. Barton, we appreciate 
you being here.
    Mr. Barton. Thank you.
    Dr. Snyder. Sorry we started later.
    Members may have some questions for the record they may 
want to ask you, and if you can get those back. Since you all 
don't have to have things, I don't think, approved by OMB, we 
appreciate you getting those back in a timely fashion.
    Thank you all.
    Ms. Cruz. Thank you.
    Ms. Parker. Thank you.
    Dr. Snyder. This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned, 
subject to the call of the Chair.]



=======================================================================




                            A P P E N D I X

                           September 5, 2007

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 5, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37731.001
    
    [GRAPHIC] [TIFF OMITTED] 37731.002
    
    [GRAPHIC] [TIFF OMITTED] 37731.003
    
    [GRAPHIC] [TIFF OMITTED] 37731.004
    
    [GRAPHIC] [TIFF OMITTED] 37731.005
    
    [GRAPHIC] [TIFF OMITTED] 37731.006
    
    [GRAPHIC] [TIFF OMITTED] 37731.007
    
    [GRAPHIC] [TIFF OMITTED] 37731.008
    
    [GRAPHIC] [TIFF OMITTED] 37731.009
    
    [GRAPHIC] [TIFF OMITTED] 37731.010
    
    [GRAPHIC] [TIFF OMITTED] 37731.011
    
    [GRAPHIC] [TIFF OMITTED] 37731.012
    
    [GRAPHIC] [TIFF OMITTED] 37731.013
    
    [GRAPHIC] [TIFF OMITTED] 37731.014
    
    [GRAPHIC] [TIFF OMITTED] 37731.015
    
    [GRAPHIC] [TIFF OMITTED] 37731.016
    
    [GRAPHIC] [TIFF OMITTED] 37731.017
    
    [GRAPHIC] [TIFF OMITTED] 37731.018
    
    [GRAPHIC] [TIFF OMITTED] 37731.019
    
    [GRAPHIC] [TIFF OMITTED] 37731.020
    
    [GRAPHIC] [TIFF OMITTED] 37731.021
    
    [GRAPHIC] [TIFF OMITTED] 37731.022
    
    [GRAPHIC] [TIFF OMITTED] 37731.023
    
    [GRAPHIC] [TIFF OMITTED] 37731.024
    
    [GRAPHIC] [TIFF OMITTED] 37731.025
    
    [GRAPHIC] [TIFF OMITTED] 37731.026
    
    [GRAPHIC] [TIFF OMITTED] 37731.027
    
    [GRAPHIC] [TIFF OMITTED] 37731.028
    
    [GRAPHIC] [TIFF OMITTED] 37731.029
    
    [GRAPHIC] [TIFF OMITTED] 37731.030
    
    [GRAPHIC] [TIFF OMITTED] 37731.031
    
    [GRAPHIC] [TIFF OMITTED] 37731.032
    
    [GRAPHIC] [TIFF OMITTED] 37731.033
    
    [GRAPHIC] [TIFF OMITTED] 37731.034
    
                                  <all>

</pre></body></html>
